OFFICE OF INSPECTOR GENERAL

AUDIT OF THE U.S. AFRICAN
DEVELOPMENT FOUNDATION’S
FISCAL YEAR 2014
COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-ADF-15-002-P
OCTOBER 23, 2014
This is a summary of our report on the “Audit of the U.S. African Development Foundation’s
Fiscal Year 2014 Compliance With the Federal Information Security Management Act of 2002.”
The Federal Information Security Management Act of 2002 (FISMA) requires agencies to
develop, document, and implement an agency-wide information security program to protect their
information and information systems, including those provided or managed by another agency,
contractor, or other source. The act also requires agencies to have an annual assessment of
their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Brown & Company CPAs, PLLC to conduct the audit. Brown was required to
conduct the audit in accordance with U.S. Government Auditing Standards. The objective was
to determine whether the U.S. African Development Foundation (USADF) implemented selected
minimum security controls for selected information systems in support of FISMA.

The audit concluded that USADF is in substantial compliance with FISMA and has developed
and documented the majority of the information security policies and procedures required under
FISMA. While USADF is in substantial compliance with FISMA, Brown noted a number of
weaknesses in which management was not following a policy or procedure.

Based on those weaknesses in USADF’s information security controls, OIG made four
recommendations to help USADF strengthen its information security program. Management
decisions were made on all four recommendations.
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
